Spotlight On... Medicaid Personal Care Services
OIG HHS
Menu
Skip Navigation
Change Font Size
+
-
Reset
Report Fraud Button
Home
FAQs
FOIA
Careers
Contact
HEAT
Download Reader
Twitter
YouTube
Office of Inspector General U.S. Department of Health and Human Services
Search the OIG Web Site
Advanced
About OIG
About Us
About the Inspector General
Organization Chart
Careers
Contact Us
Reports & Publications
All Reports & Publications
Archives
Fraud
Child Support Enforcement
Consumer Alerts
Enforcement Actions
Grant Fraud
Medicaid Fraud Control Units - MFCUs
OIG Most Wanted Fugitives
Report Fraud
State False Claims Act Reviews
Whistleblower Ombudsman
Compliance
Accountable Care Organizations
Advisory Opinions
Compliance 101and Provider Education
Compliance Guidance
Corporate Integrity Agreements
Open Letters
RAT-STATS
Safe Harbor Regulations
Self-Disclosure Information
Special Fraud Alerts, Bulletins, and Other Guidance
Recovery Act Oversight
Accountability Objectives
Audit Activities
Investigative Activities
Evaluation Activities
Whistleblower Protection
Related Links
Exclusions
Online Searchable Database
LEIE Downloadable Databases
Monthly Supplement Archive
Quick Tips
Waivers
Background Information
Applying for Reinstatement
Contact the Exclusions Program
Frequently Asked Questions
Special Advisory Bulletin and Other Guidance
Newsroom
What's New
News Releases
New Media
Spotlight Articles
Testimony & Speeches
OIG Outlook
Podcasts
Video
Switch to the full site
Report Fraud
Home
What's New
Enforcement Actions
Most Wanted Fugitives
Spotlight Articles
Newsroom
Home
Newsroom
Spotlight Articles
Tweet
Spotlight On... Medicaid Personal Care Services
06-07-2011
Update
More recent information is available on personal care services:
Personal Care Services: Trends, Vulnerabilities, and Recommendations for Improvement.
Are taxpayers footing the bill for improper Medicaid claims for personal care services?
The answer is yes, according to the Office of Inspector General (OIG) of the Department of Health & Human Services.  Ongoing and completed OIG work examines Medicaid's payment for these services around the country - the two most recent reports related to audits conducted in North Carolina and Washington State.  These audits recommend that the two States refund more than $61.1 million to the Federal Government and call upon the Centers for Medicare & Medicaid Services (CMS) to review an additional $30.3 million in tax dollars that are potentially unallowable.
OIG's review found improper claims:
without the required documentation,
for services not included in the States' plans of care,
for services provided without medical supervision, and
for services in which the qualifications for the in-home providers could not be verified.
View the audits on Medicaid payments for personal care services in North Carolina, and for services provided in Washington state.  These two audits are part of a larger body of OIG work examining Medicaid personal services.  Related work is described and linked below.
What are "Personal Care Services"?
Personal care services are nonmedical services provided to assist with activities of daily living, such as bathing, dressing, light housework, medication management, meal preparation, and transportation.  It takes only one accident or illness for anyone to need assistance with these everyday activities.
Already the combined Federal and State bill for personal care services is high and rising.  In 2004, the Nation paid $8.25 billion for these services.  Just 2 years later, the bill had increased by 20 percent to reach $9.9 billion, and in 2010 it continued to grow, reaching to $13.1 billion.
Related OIG Findings
OIG has reviewed the qualifications of attendants providing personal care services to Medicaid patients and audited Medicaid personal care services claims in New York. The following are highlights of OIG's significant findings, with links to the relevant reports.
Requirements for Personal Care Service Attendants
Improper Claims (OEI-07-08-00430) and Varying State Requirements (OEI-07-05-00250)
Across 10 States, Medicaid improperly paid $724 million for personal care services provided by attendants with undocumented qualifications.
States establish attendant qualifications, which include safeguards such as criminal background checks, minimum age requirements, or education and training requirements. For 18 percent of claims, attendants' qualifications were undocumented.
States have established multiple sets of attendant requirements that often vary among programs and by delivery models within programs, resulting in 301 sets of attendant requirements nationwide. Inconsistencies in requirements and fragmented oversight make it harder for States to ensure that attendant requirements are met.
Improper Payments for Medicaid Personal Care Services
New York City (A-02-07-01054) and New York State (A-02-08-01005)
New York City (NYC): OIG estimates that in NYC alone, $275.3 million in Federal funds were improperly claimed by New York in 2004 through 2006 for Medicaid personal care services that did not meet Federal and State requirements.
New York State (excluding NYC): More than $100.3 million in Federal tax dollars were claimed improperly by New York State (excluding NYC) from 2004 through 2006 for Medicaid personal care services.
In both reviews, Medicaid patients reported to OIG problems with their personal care services providers. The most serious allegations included physical abuse or threats of abuse, property theft, and patient abandonment.
Top
Return to Spotlight Articles
I'm Looking For
Let's start by choosing a topic
Select One
X
Compendium
Priority recommendations summarized.
FY 2014 Work Plan
OIG projects planned for 2014.
Semiannual Report
Significant OIG activities in 6-month increments.
Compliance 101
Free educational resources.
Advisory Opinions
Legal opinions issued by the OIG about the application of its fraud and abuse authorities.
Child Support Enforcement
OIG plays a role in pursuing deadbeat parents.
What's New
News Releases
New Media
Widgets
Spotlight Articles
Testimony & Speeches
OIG Outlook
Podcasts
Video
Exclusions Database
Report Fraud
Stay Connected
Twitter
YouTube
Widgets
Podcasts
Email Updates
RSS Feeds
Get Email Updates
Stay up to date on the latest OIG news and opinions
About OIG
About Us
About the Inspector General
Organization Chart
Careers
Contact Us
Reports & Publications
All Reports & Publications
Archives
Fraud
Child Support Enforcement
Consumer Alerts
Enforcement Actions
Medicaid Fraud Control Units - MFCUs
OIG Most Wanted Fugitives
Report Fraud
State False Claims Act Reviews
Whistleblower Ombudsman
Compliance
Accountable Care Organizations
Advisory Opinions
Compliance 101 and Provider Education
Compliance Guidance
Corporate Integrity Agreements
Open Letters
RAT-STATS
Safe Harbor Regulations
Self-Disclosure Information
Special Fraud Alerts, Bulletins, and Other Guidance
Recovery Act Oversight
Accountability Objectives
Audit Activities
Investigative Activities
Evaluation Activities
Whistleblower Protection
Related Links
Exclusions
Online Searchable Database
LEIE Downloadable Databases
Monthly Supplement Archive
Waivers
Quick Tips
Background Information
Applying for Reinstatement
Contact the Exclusions Program
Frequently Asked Questions
Special Advisory Bulletin and Other Guidance
Newsroom
What's New
News Releases
New Media
Spotlight Articles
Testimony & Speeches
OIG Outlook
Podcasts
Video
back to top
Accessibility
Privacy Notice
Disclaimers
Plain Writing
Guidance Practices
HIPDB
HHS.gov
IGnet
USA.gov
Site Map
Office of Inspector General, U.S. Department of Health and Human Services | 330 Independence Avenue, SW, Washington, DC  20201
Follow us on Twitter
|
Privacy
|
Disclaimers